DELL PREFERRED ACCOUNT CREDIT AGREEMENT
IMPORTANT MESSAGE FOR CUSTOMERS
Following is the DELL PREFERRED ACCOUNT CREDIT AGREEMENT that governs the Dell
Preferred Account you requested for purposes of financing the purchase of goods and/or
services from Dell Inc. or its affiliates (“Dell”), or other participating retailers who accept
the Dell Preferred Account (each, a “Participating Merchant”). Please read it carefully. IT
CONTAINS VERY IMPORTANT INFORMATION ABOUT YOUR RIGHTS AND OBLIGATIONS,
AS WELL AS LIMITATIONS AND EXCLUSIONS. UNDER THIS AGREEMENT YOU MAY BE
REQUIRED TO RESOLVE DISPUTES WITH WEBBANK, DELL FINANCIAL SERVICES (“DFS”),
AND OTHERS THROUGH ARBITRATION ON AN INDIVIDUAL BASIS, RATHER THAN A
COURT PROCEEDING. If you reject the terms and conditions contained in the Agreement,
you still have time to cancel your Account and avoid any interest charges and other credit
costs.
IF YOU WISH TO DECLINE THE TERMS AND CONDITIONS CONTAINED IN THE
AGREEMENT, YOU MUST CALL 1-800-879-9500 FOR DELL PURCHASES OR 1-800-283-2210
FOR PARTICIPATING MERCHANT PURCHASES WITHIN 3 DAYS OF RECEIPT OF THE
AGREEMENT. You will need to provide the phone representative with your Dell Preferred
Account number, your Dell Customer Number or Participating Merchant Customer Number
and/or your Order Number(s). The phone representative will communicate with WebBank
to ensure that your Account will not become effective. If you made a purchase from Dell,
the phone representative will either cancel your order or obtain another method of
payment. If you made a purchase from a Participating Merchant, you should return the
items purchased to the Participating Merchant. If your purchase arrives at your home after
you have canceled it and the shipment is left at your home without a signature, do not
open the boxes. Call the carrier and tell them that you are refusing shipment. The carrier
will arrange with you to pick up the shipment and return it to Dell or the Participating
Merchant
If you do not contact DFS to cancel your Account and fail to return your purchase to
Dell or the Participating Merchant within the applicable return period, your acceptance
of any products you purchased constitutes use of the credit offered and acceptance of
the terms and conditions of the Agreement. Your acceptance of the Agreement will
authorize DFS and/or its affiliates to request an advance of funds pursuant to the
Agreement to pay for your purchase from Dell or the Participating Merchant.
SPECIAL NOTICE TO ACTIVE MEMBERS OF THE ARMED FORCES: If you are an
active member of the Armed Forces, or a dependent of an active member of the Armed
Forces at the time you established your Account, and you established your Account on or
after October 3, 2016, the following additional terms apply to this Agreement:
•

This Agreement is modified so that the provisions under the headings “Arbitration
Notice” and “Arbitration” do not apply to you.

•

Federal law provides important protections to members of the Armed Forces and
their dependents relating to extensions of consumer credit. In general, the cost of
consumer credit to a member of the Armed Forces and his or her dependent may
not exceed an annual percentage rate of 36%.
DELL PREFERRED ACCOUNT CREDIT AGREEMENT

Offered by WebBank, Member FDIC, and serviced by Dell Financial Services.
Definitions. The word “Agreement” refers to your Dell Preferred Account Credit
Agreement. In this Agreement, the words “you” and “your” mean the person who
applied for this Dell Preferred Account. With the exception of the arbitration
provision, the words “we”, “us”, and “our” mean WebBank, who is the lender.
“Account” means your Dell Preferred Account, which will be governed by this
Agreement. Dell Financial Services (“DFS”) will service your Account for WebBank.
Use of Your Account. Your use of the open-end credit offered pursuant to this
Agreement, or its use by anyone you authorize, shall constitute acceptance of the
terms of this Agreement and the arbitration provision contained in this Agreement. Your use
of the Account also acknowledges that you are of legal age to enter into a binding agreement
with us.
Billing Period. A Billing Period is the interval between monthly billing statements. The
Statement Closing Date is the last day of the Billing Period for that statement.
Payment. You promise to pay us for all purchases charged to your Account plus any Interest
Charges and any other charges that may be assessed as provided in this Agreement. You
promise to pay at least the Minimum Payment Due as shown on your billing statement each
month by the Payment Due Date. We will advise you of your Payment Due Date each month
on your billing statement. Your Payment Due Date will be the same day of the month for
each monthly Billing Period and will be at least 22 days after the close of each Billing Period.
Your Minimum Payment Due is the greater of either $20 or the sum of all past due amounts
plus any Monthly Planned Payment Due plus 3% of the New Balance shown on your billing
statement (excluding any balance on a Planned Payment Purchase prior to its expiration
date), rounded up to the next dollar. However, the Minimum Payment Due for any Billing
Cycle will never be greater than the total balance outstanding on the Account at the end of
such Billing Period. At any time we can require you to pay all amounts by which your balance
exceeds your Credit Limit. You may pay all or any part of your balance at any time without
penalty.
When Periodic Interest Charge is Imposed. Interest Charges on purchases will
accrue from the date the transaction posts to your Account until the date we receive
payment in full of the balance on your Account. However, if you paid in full the New
Balance from your immediately preceding Billing Period by the Payment Due Date shown
on the statement, then: (1) if your Previous Balance was $0 and you pay the New Balance
for the current Billing Period by the Payment Due Date shown, you will not be charged

any Interest Charges; and (2) if you make a payment by the Payment Due Date shown
on the current statement that is less than the New Balance, that payment will be credited
as of the payment date and interest will be assessed.
Periodic Interest Charge. We figure the “Interest Charge” on your Account for any
Billing Period by applying the Daily Periodic Rate to the Average Daily Balance of your
Account (including new purchases) and multiplying the result by the number of days in the
Billing Period. To determine your “Average Daily Balance,” we calculate a new balance
each day of the Billing Period for each separate credit plan that is part of your Account.
For each credit plan we do the following: we take the previous balance each day, which
includes any billed, but unpaid Interest Charges, Late Payment Fees and other fees, add
any new purchases or charges, and subtract any payments or other credits. Then, we add
up all the New Balances for the Billing Period, and divide the total by the number of days
in the Billing Period. This gives us the Average Daily Balance for each separate credit plan
that is part of your Account. The Average Daily Balance computation results in the
compounding of interest on your Account, and you agree that we may compound interest
on your Account. Please see above, under “When Periodic Interest Charge is Imposed,” for
special rules that apply if new purchases are posted to your Account in Billing Periods when
your prior Billing Period’s New Balance was $0 or was paid in full. Interest Charges for
purchases subject to a Promotional Credit Plan with a deferred interest feature will not be
added to your Account if you pay your balance in full by the appropriate Payment Due Date.
If the Interest Charge on any billing statement is less than $2, a minimum Interest Charge
fee of $2 will be imposed. The fee will be referred to on your billing statement as “Minimum
Interest Charge Fee.”
Periodic Rate. The Daily Periodic Rate and corresponding Annual Percentage Rate (APR)
are variable rates and may change each month. The Corresponding Annual Percentage
Rate (the APR for purchases) that applies to your Account is determined by adding a
Margin to the Index, which is described below.
The Daily Periodic Rate is determined by multiplying the APR for purchases by 1/365th
(1/366th in a leap year).
The current corresponding APR for purchases, Daily Periodic Rate, Margin and any additional
restrictions on how we determine the Annual Percentage Rate appear on the Pricing
Addendum that accompanies and is a part of this Agreement.
The Index is the Prime Rate published in the “Money Rates” table by The Wall Street Journal
the business day immediately preceding the first day of your billing cycle. Any change in the
Index will cause the corresponding Annual Percentage Rate to be adjusted as of the first day
of your Billing Period that begins after the change.
Promotional Credit Plans. In addition to purchases that accrue Interest Charges and
require monthly payments as described previously in this Agreement, Promotional Credit
Plans may be offered from time to time on specific purchases. A Promotional Credit Plan
is strictly limited by its terms and the terms and conditions of the promotion to which it

relates. In addition, the benefits of a Promotional Credit Plan may expire and all accrued
Interest Charges in these plans will be added to your Account if your Account is placed
in default. The promotions that may be offered include:
a) No Interest Credit Plan (sometimes referred to as “Special Financing”) – If you pay
the full purchase price before the expiration date of the promotion, as indicated on
your billing statement, and pay the Minimum Payment Due each Billing Period when
due, no Interest Charges will be imposed on the purchase. If such payments are
not made, Interest Charges from the date the transaction posts will be added to
your Account at the end of the promotion period. We may offer promotion periods
of different lengths that we will announce from time to time. During the last two
months of any No Interest Credit Plan, amounts paid over the Minimum Payment Due
will be applied to the remaining balance of the No Interest Credit Plan about to expire.
b) Promotional Rate Plans – We may offer Promotional Rate Plans with promotional
periods of different lengths that we will announce from time to time for a specified
number of days.
c) Planned Payment Purchases – Promotional purchases on which no interest will be
charged on the purchase, repaid in substantially equal monthly installments called
“Monthly Planned Payment”. Planned Payment Purchases will be subject to the
repayment terms offered at the time of the Purchase. You promise to pay each
Monthly Planned Payment by the applicable Payment Due Date during the
promotional period and pay the Purchase balance in full by the Expiration Date. If
you fail to pay the Purchase balance in full by the Expiration Date, any remaining
balance after the Expiration Date will be subject to your Standard APR.
Credit Limit. Your “Credit Limit” on your Account will be shown on your billing
statement. You, not we, are responsible for preventing the balance on your Account
from exceeding the Credit Limit. You agree not to make any purchases that would make the
unpaid balance on your Account exceed your Credit Limit. If you exceed your Credit Limit,
we may require you to immediately pay the excess and related Interest Charges. You also
agree that we may increase or lower your Credit Limit at any time.
Charges. The following fees, when imposed, will be added to your Account balance. The
following amounts are our current fee charges. We reserve the right to change the fee
schedule from time to time and, if we do so, we will give you any notice required by law.
You may call Customer Service for a current fee schedule.
• A Late Payment Fee will be imposed if you fail to pay us the Minimum Payment Due
in full by the Payment Due Date on your billing statement. The Late Payment Fee will
be $29 for the first late payment and $40 for additional late payments within the next
6 billing cycles after any prior late payment but will not be more than the amount of
your Total Minimum Payment Due immediately prior to the late payment.
• A Returned Payment Fee will be imposed if your bank returns your check or payment
instrument to us unpaid, or will not honor your direct debit, or we cannot process
such payment for any reason. The Returned Payment Fee will be $29 for the first
returned payment and $40 for additional returned payments within the next 6 billing
cycles after any prior returned payment but will not be more than the amount of

•

•
•

your Total Minimum Payment Due immediately prior to the returned payment. You
will incur the Returned Payment Fee even if your payment is later honored by your
bank upon subsequent presentment.
The $2 minimum Interest Charge imposed on any billing statement for which a
periodic Interest Charge is imposed as described in the paragraph entitled “Periodic
Interest Charge.” It will appear on your billing statement as “Minimum Interest
Charge Fee.”
Miscellaneous Fees may be imposed, including a charge for copies of billing
statements that we are not required by law to furnish you without charge. The rates
are: research time $15 per hour and billing statements $4 per copy.
An Expedited Payment Fee of up to $15 per payment may be imposed for authorizing
a customer service representative to process a one-time expedited payment through
the use of Automated Clearing House procedures or other electronic funds transfers
from your checking account. This fee does not apply if you sign up for an ongoing
automatic payment plan where payments are deducted routinely from a designated
account.

Form of Payment. All payments must be in U.S. Dollars, and be made by check, money
order, electronic funds transfer or such other means as we may expressly permit. Do not
send cash. Payments made via a credit card will not be accepted. Any payment made using
a check or draft may not be processed or applied to your Account if it is: postdated;
incomplete (such as when a signature is missing); the numeric amount is different than the
written amount; or it is not made payable in accordance with the instructions on your billing
statement. All credits for payments on your Account are subject to final payment by the
institution on which the item of payment was drawn. When you provide a check as payment,
you authorize us either to use information from your check to make a one-time electronic
fund transfer from your bank account or to process the payment as a check transaction.
When we use information from your check to make an electronic fund transfer, funds may
be withdrawn from your bank account as soon as the same day we receive your payment,
and you will not receive your check back from your financial institution. If you submit as
payment 3 electronic funds transfers returned for any reason in any 12 month period, you
agree that we may refuse to accept subsequent payments by electronic funds transfer even
if any of the checks was later accepted by your bank.
Generally, we will not accept any payment that is not drawn either on a financial institution
located in the U.S. or the U.S. Post Office. If we do, we may charge you any bank collection
fees we incur. We can accept late or partial payments, and payments that are marked with
restrictive endorsements such as “payment in full,” without losing any of our rights.
PLEASE REMIT PAYMENTS TO: Dell Preferred Account, Payment Processing
Center, P.O. Box 6403 Carol Stream, IL 60197-6403.
Application of Payments. We will apply payments to your Account consistent with
applicable law. This means that we apply Minimum Payment Due amounts to any Planned
Payment Purchases first. We will generally apply payments in excess of the Minimum
Payment Due to balances with the higher APRs before balances with the lower APRs.

Although we apply payments as of the date we receive them if they are paid in accordance
with this Agreement and the instructions on your billing statement, your available Credit
Limit may not reflect credit for your payment for up to 10 days after we receive your
payment. In some circumstances, restoring your total available credit may be further
delayed.
Default. Your Account will be in default if: (1) you exceed the Credit Limit in effect on your
Account; (2) you fail to pay when due any amount owed under this Agreement; or (3) you
made any misrepresentations to us in applying for credit. If you are in default we may require
you to pay the total outstanding balance on your Account immediately. We do not have to
notify you or demand payment in order to take this action. As described below under Account
Cancellation, we can cancel or suspend your right to charge additional purchases to your
Account at any time.
Collection Costs and Attorney Fees. As permitted by law, you agree to pay all reasonable
attorney fees, court costs and other collection costs actually incurred by us in the collection
of any amounts you owe us under this Agreement or which are incurred by us in the event
of your bankruptcy or insolvency.
Security Interest. To the extent permitted by applicable law, you hereby grant to us
and we are retaining a purchase money security interest under the Uniform Commercial
Code in the merchandise purchased on your Account until such merchandise is paid for
in full. You agree to assist us in executing any documents necessary to perfect our
security interest. If you do not make a Minimum Payment Due on your Account by the
Payment Due Date, we may repossess any merchandise that has not been paid for in full to
the extent permitted by law.
Account Cancellation. You may cancel your Account at any time by notifying us in
writing. We may at any time and for any reason, without prior notice refuse to authorize
any purchase on your Account, or suspend your Account and your right to use your
Account. In addition, we may at any time and for any reason, without prior notice, cancel
your Account. If we cancel your Account, we may require you to pay the full outstanding
balance of your Account. No cancellation or suspension of your Account will affect your
obligation to pay any amount you owe us under this Agreement. You agree that you will
not try to make a purchase after you have been notified that your Account has been
canceled.
Final Agreement. This Agreement is a final expression of the agreement between you and
us and may not be contradicted by evidence of any alleged oral agreement.
Amendments to This Agreement. We may change or terminate the terms in this
Agreement or the services or features of your Account (including increasing your Interest
Charges) at any time as permitted by law. We may also add new terms to this Agreement
or services and features to your Account. Any change in terms or any new terms may apply
to any outstanding balance as well as on subsequent transactions and balances. To the
extent required by law, we will notify you in advance of any changes in terms or any new

terms and any right to reject such changes by mailing a notice to you at your address as
shown on our records. However, no amendment will eliminate our obligations relating to
arbitration. Any dispute that arose before an amendment shall be governed by this
Agreement (including the binding individual arbitration clause) that was in place when the
Dispute arose.
Assignment of Account. We may sell or transfer your Account or any amounts owed on
your Account to another party at any time without prior notice to you. If we assign your
Account, this Agreement will still be in effect and any successor will have our rights in this
Agreement to the extent assigned. Following an assignment, the words “we”, “us”, and “our”
in this Agreement shall refer to any assignee. You shall not have any right to transfer your
Account or assign this Agreement to anyone.
Telephone Monitoring. Telephone communications with us, including calls with any of our
agents or independent contractors, are routinely monitored and/or recorded. You expressly
consent, on behalf of yourself and other users of your phone, to being monitored or
recorded.
Mobile Phone Communications. If you have already or in the future provide us with a
mobile phone number as your contact number, you expressly authorize us, and our agents
or independent contractors, to contact you regarding your Account for non-telemarketing
communications, via text message or mobile telephone, including by way of pre-recorded or
auto-dialed calls, using that mobile phone number. Normal mobile phone charges or text
message rates may apply. Your consent to use your mobile phone number may be revoked
by calling 1-800-283-2210 or by sending a written notice to us, online or by U.S. Mail, at one
of the following addresses:
MyDFS.dell.com
or
Dell Financial Services
P.O. Box 81575
Austin, Texas 78708-1575
Any revocation by you regarding your mobile phone number shall not revoke our right to
contact you utilizing any other contact information you previously provided to us or may
provide later.
Change of Address. If you move or change your billing address or e-mail address, you
agree to promptly notify us of your new address in writing or online at MyDFS.dell.com.
Authorized Users. You may give another person authorization to use your Account. You
are liable for all use of your Account, and you agree to pay all amounts incurred by the use
of your Account, made by you or anyone to whom you have given authorization to use your
Account.

Liability for Unauthorized Use. If you notice the loss or theft of your Account or a possible
unauthorized use of your Account, you should call us immediately at 1-866-228-9620. You
must also contact us in writing to provide information about the loss, theft or potential
unauthorized use of your Account at:
Dell Financial Services, Attn: Security Department, P.O. Box 81565, Austin, TX 78708
You will not be liable for any unauthorized use that occurs after you notify us. You may,
however, be liable for unauthorized use that occurs before your notice to us. In any case,
your liability will not exceed $50.
Unauthorized use does not include use by a person to whom you have given authority to
use your Account.
Credit Investigation and Reporting. You agree that we may investigate your credit in
connection with the initial extension, review, or collection of your Account. You agree that
we may examine employment and income records and verify your credit references and also
may report to credit reporting agencies the status and payment history of your Account.
Delay in Taking Action. We will not lose any of our rights under this Agreement if we
delay taking action for any reason. To the extent allowed by law, we may take other action
not described in this Agreement, and by doing so will not lose our rights under this
Agreement.
Severability. If any provision of this Agreement is found to be unenforceable, all other
provisions shall remain in full force and effect.
Applicable Law. The laws of the United States of America, including the Federal Arbitration
Act, 9 U.S.C. Sections 1-16 (the “FAA”), and the laws of the State of Utah apply to and
govern this Agreement and your use of your Account.
NOTICE
ANY HOLDER OF THIS CONSUMER CREDIT CONTRACT IS SUBJECT TO ALL
CLAIMS AND DEFENSES WHICH THE DEBTOR COULD ASSERT AGAINST THE
SELLER OF GOODS OR SERVICES OBTAINED WITH THE PROCEEDS HEREOF.
RECOVERY HEREUNDER BY THE DEBTOR SHALL NOT EXCEED AMOUNTS PAID BY
THE DEBTOR HEREUNDER.

ARBITRATION NOTICE
THIS AGREEMENT CONTAINS AN ARBITRATION CLAUSE. PLEASE READ THIS
PROVISION CAREFULLY. IT PROVIDES THAT ANY CLAIM RELATING TO YOUR
ACCOUNT MAY BE RESOLVED BY BINDING INDIVIDUAL ARBITRATION. YOU ARE
ENTITLED TO A FAIR HEARING, BUT THE ARBITRATION PROCEDURES ARE SIMPLER

AND MORE LIMITED THAN RULES APPLICABLE IN COURT, AND ARBITRATION
DECISIONS ARE SUBJECT TO VERY LIMITED REVIEW. CLAIMS MAY BE ARBITRATED
ONLY ON AN INDIVIDUAL BASIS. IF EITHER PARTY CHOOSES TO ARBITRATE A
CLAIM, NEITHER PARTY WILL HAVE THE RIGHT TO LITIGATE THAT CLAIM IN
COURT OR TO HAVE A JURY TRIAL ON THAT CLAIM, OR TO PARTICIPATE IN A
CLASS ACTION OR REPRESENTATIVE ACTION WITH RESPECT TO SUCH CLAIM.
Arbitration. Except as expressly provided herein, any claim, dispute or controversy
(whether based upon contract, tort, intentional or otherwise, constitution, statute, common
law, or equity and whether pre-existing, present or future including initial claims, counterclaims, cross-claims and third-party claims), arising from or relating to you applying for,
obtaining, or using this Account, this Agreement (including the validity or enforceability of
this arbitration clause, any part thereof or the entire Agreement), or the relationships which
result from this Agreement (“Claim”) shall be decided, upon the election of you or us, by
binding arbitration pursuant to this arbitration provision and the applicable rules and
procedures of the arbitration administrator (including any applicable procedures for
consumer-related disputes) in effect at the time the Claim is filed. The party initially
requesting arbitration shall select either the American Arbitration Association (“AAA”) or
JAMS (originally, Judicial Arbitration and Mediation Services) as the arbitration
administrator. You may change the selection to the other organization listed within 30 days
after you receive notice of an election to arbitrate. If a selected arbitration administrator
does not agree to arbitrate a Claim, the remaining arbitration administrator shall be
selected. Claims may be referred to an administrator other than the AAA or JAMS if both
AAA and JAMS are not available. We agree not to invoke our right to arbitrate any individual
Claim you bring in small claims court or an equivalent court so long as the Claim is pending
only in that court. It is the intent of the parties to require Claims to be submitted to
arbitration on an individual basis only. Claims subject to this arbitration provision
may not be joined or consolidated in arbitration with any Claim of any other
person or be arbitrated on a class basis, in a representative capacity on behalf
of the general public or on behalf of any other person.
For the purposes of this arbitration provision, the terms “we” and “us” shall mean
WebBank and Dell Financial Services L.L.C., their parents, direct and indirect subsidiaries,
affiliates, licensees, predecessors, successors, assigns and any purchaser of the Account
or any receivables arising from the use of the Account, and each of their respective
employees, directors and representatives. In addition, for the purposes of this arbitration
provision, “we” and “us” shall mean any third party providing any products or services to
you or us in connection with your Account (including but not limited to any credit bureau,
debt collector or vendor, Participating Merchant, and including their parents, direct and
indirect subsidiaries, affiliates, licensees, predecessors, successors and assigns, and each
of their respective employees, directors and representatives) if such third party is a codefendant with us in any Claims asserted by you or if any Claims asserted by you against
such third party arise from or are related to your Account or any products or services
provided to you or us in connection with your Account. For the purposes of this arbitration
provision, the term “you” shall mean you and any person authorized by you to use your
Account.

Any arbitration pursuant to this provision may be resolved without an in person hearing ,
as determined by the arbitrator. If a hearing is held, it shall take place within the county
or parish in which you live or at such other reasonably convenient location as agreed
by the parties.
In any arbitration, we will pay the entire amount of the arbitration fees, including any
required deposit. Each party shall be initially responsible for payment of their own attorney
fees, witness fees and similar expenses.
The arbitrator shall apply applicable substantive law consistent with the FAA and
applicable statutes of limitation and shall honor all claims of privilege and confidentiality
recognized at law. The arbitrator shall have the sole and exclusive authority to resolve
any dispute relating to the enforceability of this arbitration provision including any
unconscionability challenge or any other challenge that the Agreement or the arbitration
provision is void, voidable, or otherwise invalid. The arbitrator shall be empowered to
grant whatever relief would be available in court under law or in equity. At the conclusion
of the arbitration, the arbitrator may allocate arbitration fees in accordance with applicable
law, provided that such fees do not exceed the filing fees that would have been incurred
if the Claim had been brought in a state or federal court with jurisdiction over the Claim.
Where authorized by applicable law, the arbitrator’s award may also include attorney fees,
witness fees and similar expenses. At the request of any party, the arbitrator will provide
a written explanation of the basis for the award and the disposition of each Claim, including
written findings of fact and conclusions of law. Judgment upon the award may be entered
in any court having jurisdiction.
This arbitration provision shall survive termination of your Account as well as the
repayment of all amounts you owe under the Agreement. If any provision of this arbitration
agreement is found unenforceable, the unenforceable provision shall be severed, and the
remaining arbitration terms shall be enforced (but in no case shall there be a class
arbitration). In the event of a conflict or inconsistency between the rules and procedures of
the arbitration administrator and this arbitration provision, this arbitration provision shall
govern.
YOU ACKNOWLEDGE THAT IF A CLAIM ARISES YOU MAY BE REQUIRED TO RESOLVE
THE CLAIM THROUGH ARBITRATION AND ARE GIVING UP YOUR RIGHTS TO LITIGATE
THAT CLAIM IN A COURT OR BEFORE A JURY OR TO PARTICIPATE IN A CLASS ACTION
OR REPRESENTATIVE ACTION WITH RESPECT TO SUCH A CLAIM. OTHER RIGHTS
THAT YOU WOULD HAVE IF YOU WENT TO COURT MAY ALSO BE UNAVAILABLE OR
MAY BE LIMITED IN ARBITRATION.
You may contact the arbitration administrators and obtain their arbitration rules or learn how
to file a Claim with the AAA or JAMS as follows:
American Arbitration Association
(800) 778-7879
www.adr.org

JAMS
(800) 352-5267
www.jamsadr.com
STATE SPECIFIC DISCLOSURES
As required by federal and Utah law, you are hereby notified that a negative credit report
reflecting on your credit record may be submitted to a credit reporting agency if you fail to
fulfill the terms of your credit obligations.
Notice for all accounts, including New York/Rhode Island/Vermont
Residents: You agree to give us permission to obtain a credit report from a consumer
reporting agency in connection with this application, any transaction, or extension of
credit, and on an ongoing basis, for the purpose of performing a routine and occasional
verification of credit on your Account, adjusting the credit limit on your Account, taking
collection action on your Account, or for any other legitimate purpose associated with
your Account. Upon your request, you will be informed of whether or not a consumer credit
report was ordered, and if it was, you will be given the name and address of the consumer
reporting agency that furnished the report. New York residents may contact the New York
State Department of Financial Services at 1-877-226-5697 or at 1 State Street, New York,
NY 10004 to obtain a comparative listing of credit card rates, fees and grace periods.
Notice for California Residents: California law requires that we inform customers that
should they fail to fulfill the terms of their credit obligation, a negative report reflecting
on their credit record may be submitted to a credit reporting agency. If you are marr ied,
you may apply for a separate account in your own name.
Notice for Ohio Residents: The Ohio laws against discrimination require that all creditors
make credit equally available to all credit worthy customers, and that credit reporting
agencies maintain separate credit histories on each individual upon request. The Ohio civil
rights commission administers compliance with this law.
Notice for Married Wisconsin Residents: If you are married, by submitting your
Account application you are confirming that this Account obligation is being incurred in
the interest of your marriage and your family. No provision of a marital property
agreement, a unilateral statement under Sec. 766.59 Wis. Stats., or a court decree under
Sec. 766.70 adversely affects the interest of the creditor unless the creditor, prior to the
time the credit is granted, is furnished a copy of the agreement, statement, or decree or
has actual knowledge of the adverse provision when the obligation to the creditor is
incurred. If the Account for which you are applying is granted, you will notify us if you
have a spouse who needs to receive notification that credit has been extended to you.
Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing
Act.

What to Do If You Find a Mistake on Your Statement
If you think there is an error on your statement, write to us at:
Dell Preferred Account
Attn: Billing Inquiry Department
P.O. Box 81585
Austin, TX 78708-1585
In your letter, give us the following information:
•

Account information: Your name and account number.

•

Dollar amount: The dollar amount of the suspected error.

•

Description of problem: If you think there is an error on your bill, describe what
you believe is wrong and why you believe it is a mistake.

You must contact us:

•

Within 60 days after the error appeared on your statement.

•

At least 3 business days before an automated payment is scheduled, if you want to
stop payment on the amount you think is wrong.

You must notify us of any potential errors in writing. You may call us, but if you do we are
not required to investigate any potential errors and you may have to pay the amount in
question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do 2 things:

1. Within 30 days of receiving your letter, we must tell you that we received your letter.
We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to
you why we believe the bill is correct.
While we investigate whether or not there has been an error:

•

We cannot try to collect the amount in question, or report you as delinquent on the
amount.

•

The charge in question may remain on your statement, and we may continue to
charge you interest on that amount.

•

While you do not have to pay the amount in question, you are responsible for the
remainder of your balance.

•

We can apply any unpaid amount against your credit limit.

After we finish our investigation, 1 of 2 things will happen:
•

If we made a mistake: You will not have to pay the amount in question or any interest
or other fees related to that amount.

•

If we do not believe there was a mistake: You will have to pay the amount in question,
along with applicable interest and fees. We will send you a statement of the amount
you owe and the date payment is due. We may then report you as delinquent if you
do not pay the amount we think you owe.

If you receive our explanation but still believe your bill is wrong, you must write to us within
10 days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent
without also reporting that you are questioning your bill. We must tell you the name of
anyone to whom we reported you as delinquent, and we must let those organizations know
when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount
you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Purchases
If you are dissatisfied with the goods or services that you have purchased with Dell Preferred
Account, and you have tried in good faith to correct the problem with the merchant, you
may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:

1. The purchase must have been made in your home state or within 100 miles of your
current mailing address, and the purchase price must have been more than $50.
(Note: Neither of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that sold you the goods
or services.)
2. You must have used your Dell Preferred Account for the purchase. Purchases made
with cash advances from an ATM or with a check that accesses your Dell Preferred
Account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us
in writing at:

Dell Preferred Account
Attn: Billing Inquiry Department
P.O. Box 81585
Austin, TX 78708-1585
While we investigate, the same rules apply to the disputed amount as discussed above.
After we finish our investigation, we will tell you our decision. At that point, if we think you
owe an amount and you do not pay, we may report you as delinquent.

Terms Rev. 11182019

